Nos. 19-416, 19-453

 

 

In THE

Supreme Court of the Gnited States

NESTLE USA, INC., PETITIONER,
ve.

JOHN DoEI, ET AL.

CARGILL, INC., PETITIONER,
v.

JOHN DoEI, ET AL.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
U.S. COURT OF APPEALS FOR THE NINTH CIRCUIT

BRIEF OF AMICI CURIAE THE CHAMBER OF
COMMERCE OF THE UNITED STATES OF
AMERICA, THE NATIONAL FOREIGN TRADE
COUNCIL, THE NATIONAL ASSOCIATION OF
MANUFACTURERS, AND THE ORGANIZATION
FOR INTERNATIONAL INVESTMENT
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,879 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 28, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
